Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    INAPPROPRIATE AND
  QUESTIONABLE MEDICARE
 BILLING FOR DIABETES TEST
           STRIPS




                    Daniel R. Levinson
                     Inspector General

                      August 2013
                     OEI-04-11-00330
EXECUTIVE SUMMARY: INAPPROPRIATE AND QUESTIONABLE
MEDICARE BILLING FOR DIABETES TEST STRIPS
OEI-04-11-00330

WHY WE DID THIS STUDY

In 2011, Medicare allowed approximately $1.1 billion to 51,695 suppliers for diabetes
test strips (DTS) provided to 4.6 million beneficiaries. Recent investigations and prior
Office of Inspector General studies have found that DTS is an area vulnerable to fraud,
waste, and abuse. The Centers for Medicare & Medicaid Services (CMS) implemented
the Competitive Bidding Program in 2011 to reduce payments for durable medical
equipment, prosthetics, orthotics, and supplies and help reduce fraud and abuse. Mail
order DTS is included in the Competitive Bidding Program, but non-mail order DTS
currently is not.

HOW WE DID THIS STUDY

We analyzed Medicare-allowed 2010 and 2011 DTS claims and inpatient claims from
hospitals and skilled nursing facilities for beneficiaries associated with allowed 2010 and
2011 DTS claims. In addition, we identified suppliers that billed amounts that were
unusually high—according to at least one of six measures of questionable billing—that
were subsequently allowed by Medicare, and we determined the geographic areas for
these questionable-billing suppliers. Finally, we determined the extent of questionable
billing before and after implementation of the Competitive Bidding Program.

WHAT WE FOUND

In 2011, Medicare inappropriately allowed $6 million for DTS claims billed (1) for
beneficiaries without a documented diagnosis code for diabetes, or that inappropriately
overlapped with (2) an inpatient hospital stay, or (3) an inpatient Skilled Nursing Facility
stay. Further, we found that $425 million in Medicare-allowed claims—made by
10 percent of DTS suppliers—had characteristics of questionable billing. Suppliers in
10 geographic areas nationwide were responsible for 77 percent of questionable billing.
However, the Competitive Bidding Program appears to have reduced questionable billing
for mail order DTS in Competitive Bidding Areas (CBA). Similar reductions in
questionable billing did not occur in non-CBA areas or for non-mail order DTS.

WHAT WE RECOMMEND

CMS partially concurred with two of our recommendations: CMS should enforce
existing edits (system processes) to prevent inappropriate DTS claims, and CMS should
increase monitoring of DTS suppliers’ Medicare billing. CMS concurred with two other
recommendations: CMS should provide more education to suppliers and beneficiaries
about appropriate DTS billing practices, and CMS should take appropriate action
regarding inappropriate Medicare DTS claims and suppliers with questionable DTS
billing.                                
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................7 

Findings......................................................................................................14 

           In 2011, Medicare inappropriately allowed $6 million for DTS
           claims with three types of errors ....................................................14 

           Medicare allowed $425 million in questionable billing to 

           10 percent of DTS suppliers ..........................................................16 

           Seventy-seven percent of questionable billing was associated with
           suppliers in 10 geographic areas ....................................................19 

           The Competitive Bidding Program appears to have reduced 

           questionable billing for mail order DTS in CBAs .........................21 

Conclusion and Recommendations ............................................................23 

           Agency Comments and Office of Inspector General Response.....25 

Appendixes ................................................................................................27 

           A: Geographic Areas of Diabetes Test Strips Suppliers With Four 

           or More Measures of Questionable Billing, 2011 ..........................27 

           B: Geographic Areas of Top 10 Questionable Billing Diabetes Test 

           Strips Suppliers, 2011 ....................................................................28 

           C: Medicare-Allowed Amounts for and Number of Suppliers With 

           Questionable Billing for Mail Order and Non-Mail Order Diabetes 

           Test Strips in Competitive Bidding Areas and Non-Competitive 

           Bidding Areas in 2010 and 2011 ....................................................29 

           D: Agency Comments ...................................................................33 

Acknowledgments......................................................................................37 

                   OBJECTIVES
                   1.	 To determine the extent to which diabetes test strip (DTS) suppliers
                        had claims with at least one of three types of errors in 2011: claims
                        without a documented diagnosis code for diabetes, claims that
                        overlapped with an inpatient hospital stay, and claims that overlapped
                        with a Skilled Nursing Facility (SNF) stay.
                   2.	 To identify and describe suppliers that exhibited questionable billing
                        for DTS in 2011 and the suppliers’ geographic areas.
                   3.	 To describe whether the Competitive Bidding Program appears to have
                        reduced questionable billing for mail order DTS in Competitive
                        Bidding Areas (CBA).

                   BACKGROUND
                   Diabetes is a chronic disease in which a person has a high blood sugar
                   (i.e., glucose) level because the body either does not produce enough
                   insulin or cells do not respond properly to the insulin that the body does
                   produce.1 Diabetes may be managed in several ways, including healthy
                   diet, physical activity, and insulin injections.2 If those with diabetes do
                   not properly manage their glucose levels, medical complications (e.g.,
                   hypoglycemia, cardiovascular disease or retinal damage) may occur.
                   Diabetes disproportionately affects older adults. Approximately
                   26.9 percent of individuals ages 65 and older—10.9 million people—
                   reported having diabetes in 2010, while only 8.3 percent of individuals of
                   all ages reported having the disease.3
                   Those with diabetes may use small, hand-held meters to test the
                   concentration of glucose in their blood. To test glucose level, the
                   individual inserts a diabetes test strip into the meter. A diabetes test strip
                   is a small, thin, one-time-use piece of plastic on which a sample of blood
                   is placed after pricking the skin. The meter reading provides the
                   individual with information to use in managing his or her diabetes. There
                   are two main types of diabetes, type 1 and type 2. Those with type 1 (i.e.,
                   insulin-dependent) diabetes depend on insulin injections to regulate their

                   1
                     National Institutes of Health (NIH), What are the Types of Diabetes? Accessed at
                   http://diabetes.niddk.nih.gov/dm/pubs/overview/ on May 15, 2012.
                   2
                     NIH, Diabetes Overview: How is Diabetes Managed? Accessed at
                   http://www.diabetes.niddk.nih.gov/dm/pubs/overview/index.htm#managed on
                   May 15, 2012.
                   3
                     National Institute of Diabetes and Digestive and Kidney Diseases, National Diabetes
                   Statistics, 2011. Accessed at
                   http://diabetes.niddk.nih.gov/dm/pubs/statistics/DM_Statistics_508.pdf on May 3, 2012.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)     1
                   blood-glucose levels. Generally, type 1 diabetes is diagnosed when
                   individuals are children or young adults. Type 2 (i.e.,
                   non-insulin-dependent) diabetes mostly affects adults over age 40. Many
                   individuals with type 2 diabetes can manage the disease with lifestyle
                   changes, such as special diets and exercise, and do not require insulin
                   injections to regulate their blood-glucose levels.4
                   DTS is an area vulnerable to fraud. For example, in response to
                   allegations initially made by a whistleblower, a Tennessee medical supply
                   company agreed to pay the United States Government and the State of
                   Tennessee $18 million to settle claims that the company wrongly solicited
                   Medicare beneficiaries and wrongly billed Medicare for diabetes testing
                   supplies (e.g., blood-glucose monitors, lancets) and other medical products
                   between 2008 and 2010.5
                   Medicare Coverage of Diabetes Test Strips
                   Medicare covers services and testing supplies to help beneficiaries with
                   diabetes manage the condition. In 2011, Medicare allowed approximately
                   $1.1 billion for DTS.6
                   To be eligible for Medicare coverage of DTS and other diabetes testing
                   supplies, beneficiaries must have diabetes that is being treated by a
                   physician.7 They also must use the DTS in their homes (i.e., not in a
                   hospital or SNF).8 To receive Medicare payment, suppliers must
                   document an appropriate diabetes diagnosis code for beneficiaries.9



                   4
                     NIH, Type 2 Diabetes. Accessed at
                   http://www.nlm.nih.gov/medlineplus/ency/article/000313.htm on February 27, 2013.
                   5
                     Department of Justice news release, AmMed Direct, LLC, to Pay $18 Million to Settle
                   False Claims Act Allegations, April 13, 2012. Accessed at
                   http://www.justice.gov/usao/tnm/pressReleases/2012/4-13-12.html on April 30, 2012.
                   6
                     OIG analysis of Medicare Part B claims data for DTS, 2012. Medicare-allowed
                   amounts are 100 percent of the payment made to a supplier by both Medicare and the
                   beneficiary. Medicare pays 80 percent of allowed charges, and the beneficiary is
                   responsible for the remaining 20 percent.
                   7
                     Medicare Local Coverage Determinations (LCDs) for Glucose Monitors (L11530,
                   L27231, L11520, and L196 for Jurisdictions A, B, C, and D respectively). CMS requires
                   LCDs developed and revised by Durable Medical Equipment Medicare Administrative
                   Contractors (DME MACs) to be identical. CMS, Medicare Benefit Policy Manual, Pub.
                   No. 100-08, ch. 13, § 13.1.4.
                   8
                     CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 15, § 110.1(D).
                   9
                     Medicare LCDs for Glucose Monitors (L11530, L27231, L11520, and L196). Each
                   LCD states that for Medicare coverage of home blood glucose monitors and related
                   accessories and supplies, the patient must have diabetes (International Classification of
                   Diseases 9th Revision (ICD-9) codes 249.00–250.93). In addition, “[t]he ICD-9
                   diagnosis code describing the condition that necessitates glucose testing must be included
                   on each claim for the monitor, accessories, and supplies.”

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)       2
                   Suppliers can bill Medicare for DTS for up to 3 months at a time. 10 Each
                   claim must indicate the number of units of DTS and the start and end dates
                   associated with the claim.11 Medicare covers up to 100 DTS (i.e., two
                   50-count boxes) per month for insulin-dependent beneficiaries and up to
                   100 DTS every 3 months for non-insulin-dependent beneficiaries.12
                   Medicare allows additional DTS if deemed medically necessary and
                   documented in physician records.13
                   Medicare beneficiaries may purchase their DTS via mail order or non-mail
                   order means. In 2010 and 2011, “mail order” applied to DTS ordered
                   remotely (that is, by telephone, e-mail, Internet, or mail) and delivered by
                   a common carrier such as UPS, FedEx, or the U.S. Postal Service.14
                   “Non-mail order” applied to beneficiary storefront pickup and DTS
                   supplier delivery to beneficiaries’ homes.15
                   To receive Medicare payment for mail order DTS, suppliers submit claims
                   using the Healthcare Common Procedure Coding System (HCPCS) code
                   A4253 and modifier KL. The KL modifier must be included on each
                   claim to specify that the item was provided via mail order. Claims without
                   the KL modifier indicate that the DTS was provided via non-mail order.16
                   Suppliers may refill an order for mail order or non-mail order DTS only
                   when beneficiaries have nearly exhausted the previous supply and



                   10
                      Medicare LCDs for Glucose Monitors (L11530, L27231, L11520, and L196).

                   11
                      CMS, CWF Change for Billing for Glucose Test Strips and Supplies – Follow-up to CR 

                   2156, Change Request 2363, Transmittal B-03-004 (Jan. 24, 2003). On the claim, the 

                   start and end dates are referred to as the “from” and “through” dates, respectively. The

                   “from” date is the date that the DTS is provided directly to the beneficiary or the shipping

                   date, if a delivery/shipping service is used. The “through” date is the date that a 

                   beneficiary should exhaust his or her supply of DTS. For example, see Local Coverage 

                   Article for Billing for Glucose Test Strips and Supplies (A143). 

                   12
                      Medicare LCDs for Glucose Monitors (L11530, L27231, L11520, and L196). 

                   13
                      Ibid. 

                   14
                      CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 36, §§ 10.2, 

                   20.5.4.1, and 50.6. Accessed at 

                   https://www.cms.gov/manuals/downloads/clm104c36.pdf on February 2, 2012. See also 

                   CMS, Mail Order Diabetic Supplies Fact Sheet. Accessed at 

                   https://www.cms.gov/MLNProducts/downloads/DME_Mail_Order_Factsheet_ICN90092

                   4.pdf on June 20, 2012.

                   15
                      After Round 1 of the Competitive Bidding Program, the definition of mail order will 

                   expand to include DTS delivered by company vehicles and will be any item (e.g., DTS) 

                   shipped or delivered to the beneficiary’s home regardless of the method of delivery.

                   75 Fed. Reg. 73170, 73570, and 73623 (Nov. 29, 2010) (revising the definition of “mail 

                   order item” in 42 CFR 414.402 and explaining why the new definition will not apply to

                   Round 1). 

                   16
                      CMS, Medicare Claims Processing Manual, Pub. No. 100-04, ch. 36, §§ 20.5.4.1 and
                   50.6.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)         3
                   specifically request additional DTS.17 Suppliers may not automatically
                   dispense a quantity of DTS on a predetermined basis.18 Instead, suppliers
                   must contact the beneficiary before dispensing the refill to verify the
                   quantity of DTS that is needed for the next billing period. Suppliers
                   should contact beneficiaries regarding refills no sooner than approximately
                   7 days before the anticipated delivery/shipping date. The refills should be
                   delivered no sooner than approximately 5 days before the anticipated end
                   of the DTS supply.19
                   The Competitive Bidding Program and Diabetes Test Strips
                   Before 2011, Medicare reimbursed all DTS suppliers on the basis of
                   established fee schedule amounts, which were updated annually and varied
                   by State. In 2011, Medicare replaced these fee schedule amounts with a
                   Competitive Bidding Program for selected durable medical equipment,
                   prosthetics, orthotics, and supplies (DMEPOS) in nine CBAs.20, 21 Mail
                   order DTS was included in the first year of implementation of the
                   Competitive Bidding Program, but non-mail order DTS was not.
                   CMS used bids submitted by DMEPOS suppliers to determine the
                   competitive bidding payment amounts. CMS evaluated bids on the basis

                   17
                      CMS, Medicare Program Integrity Manual. Pub. 100-08, ch. 4, § 4.26.1 (before 

                   Change Request 7410, Transmittal 389). During our review, CMS revised the guidance

                   for timeframes for refills. For claims with dates of services on or after August 2, 2011, 

                   CMS revised the contact and delivery timeframes to allow suppliers to (1) contact 

                   beneficiaries regarding refills no sooner than 14 days before the delivery/shipping date 

                   and (2) deliver refills no sooner than 10 days before the end of usage of the current

                   supply. However, we did not consider this revised guidance in our review. CMS, 

                   Medicare Program Integrity Manual. Pub. 100-08, ch. 5 § 5.2.6 (added by Change 

                   Request 7452, Transmittal 378, effective August 2, 2011) and CMS, Medicare Program 

                   Integrity Manual. Pub. 100-08, Ch. 4, § 4.26.1 (revised by Change Request 7410,

                   Transmittal 389, effective Oct. 31, 2011). 

                   18
                      Ibid. 

                   19
                      Ibid. 

                   20
                      Medicare Prescription Drug, Improvement, and Modernization Act of 2003, 

                   P.L. 108-173 § 302(b)(1), as amended by the Medicare Improvements for Patients and
                   Providers Act of 2008, P.L. 110-275, § 154. Social Security Act § 1847, 42 U.S.C.
                   § 1395w-3.
                   21
                      A CBA is defined by specific ZIP Codes related to Metropolitan Statistical Areas
                   (MSA), which are designated by the Office of Management and Budget that include
                   major cities and the suburban areas surrounding them. The 9 CBAs included in Round 1
                   of the Competitive Bidding Program were Charlotte (Charlotte–Gastonia–Concord,
                   North Carolina and South Carolina); Cincinnati (Cincinnati–Middletown, Ohio,
                   Kentucky, and Indiana); Cleveland (Cleveland–Elyria–Mentor, Ohio); Dallas (Dallas–
                   Fort Worth–Arlington, Texas); Kansas City (Kansas City, Missouri and Kansas); Miami
                   (Miami–Fort Lauderdale–Miami Beach, Florida); Orlando (Orlando–Kissimmee,
                   Florida); Pittsburgh (Pittsburgh, Pennsylvania); and Riverside (Riverside–
                   San Bernardino–Ontario, California). CMS, Metropolitan Statistical Areas, Competitive
                   Bidding Areas, and ZIP Codes. Accessed at
                   http://www.cms.gov/DMEPOSCompetitiveBid/01a_MSAs_and_CBAs.asp#TopOfPage
                   on May 25, 2012.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)        4
                   of suppliers’ eligibility, their financial stability, and the bid price.22 CMS
                   awarded contracts to the suppliers who generally offered lower prices and
                   met applicable quality and financial standards.23, 24
                   Beginning in 2011, beneficiaries residing in CBAs had to obtain mail
                   order DTS through a contract supplier in the Competitive Bidding
                   Program. Non-mail order DTS provided by any Medicare supplier, as
                   well as mail order DTS provided to beneficiaries residing in non-CBA
                   areas, continued to be reimbursed at the fee-schedule amount.25
                   As a result of the Competitive Bidding Program, 2011 payment rates for
                   mail order DTS for beneficiaries residing in CBAs were lower than
                   payment rates for mail order DTS for beneficiaries residing in non-CBA
                   areas. Specifically, the average Medicare payment for mail order DTS
                   provided to beneficiaries in CBAs was $14.62 per 50-count box, less than
                   half of either the national average Medicare payment for mail order DTS
                   of $32.47 or the national average payment for non-mail order DTS of
                   $37.67. The national mail order competition for DTS began on July 1,
                   2013, for mail order DTS only.26 After July 1, 2013, beneficiaries may
                   continue to purchase DTS in person at any Medicare-enrolled supplier
                   storefront accredited to furnish these items.27 The payment rate for non-
                   mail order DTS will be equal to the single payment amount for mail order




                   22
                      CMS, Overview of the DMEPOS Competitive Bidding Program. Accessed at
                   http://www.dmecompetitivebid.com/palmetto/cbic.nsf/DocsCat/Home on April 24, 2012.
                   23
                      CMS, CMS Media Release Database Fact Sheet. Details for: Expansion of
                   Competitive Bidding Program for Durable Medical Equipment, Prosthetics, Orthotics,
                   and Supplies. Accessed at
                   http://www.cms.gov/apps/media/press/factsheet.asp?Counter=2812 on April 24, 2012.
                   24
                      The number of winning suppliers in each CBA ranges from 9 to 25. CMS, Contract
                   Supplier Lists. Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-Service-
                   Payment/DMEPOSCompetitiveBid/Contract-Supplier-Lists.html on June 5, 2012.
                   25
                      CMS educated suppliers about the appropriate billing requirements under the
                   Competitive Bidding Program. For example, CMS produced a Medicare Learning
                   Network (MLN) fact sheet on the diabetes test supplies product category, an MLN article
                   for noncontract suppliers, and an MLN article about the use of modifiers. CMS also led a
                   national supplier call and a contract supplier call about appropriate billing under the
                   Competitive Bidding Program.
                   26
                      The national mail order competition for DTS includes all parts of the United States,
                   including the 50 States, the District of Columbia, Puerto Rico, the U.S. Virgin Islands, Guam,
                   and American Samoa. CMS, The Durable Medical Equipment, Prosthetics, Orthotics, and
                   Supplies (DMEPOS) Competitive Bidding Program: Mail-Order Diabetic Supplies.
                   Accessed at http://www.cms.gov/Outreach-and-Education/Medicare-Learning-Network-
                   MLN/MLNProducts/downloads/DME_Mail_Order_Factsheet_ICN900924.pdf on July 31,
                   2013.
                   27
                        Ibid.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)           5
                   DTS under the Competitive Bidding Program, i.e. $10.41.28, 29
                   CMS estimates that the Competitive Bidding Program will save Medicare
                   Part B $25.7 billion between 2013 and 2022 and will help reduce fraud
                   and abuse.30 CMS reported that in the first year of implementation, the
                   program saved Medicare approximately $202.1 million.31 Additionally,
                   expenditures in the nine CBAs for the DMEPOS items included in the
                   program decreased 42 percent in the first year of implementation.32 CMS
                   also reports that the Competitive Bidding Program has not disrupted
                   beneficiaries’ access to DMEPOS items and that no negative health-care
                   consequences have resulted from the program.33
                   Related Office of Inspector General Work
                   OIG has identified vulnerabilities pertaining to suppliers’ claims for
                   DTS.34 Specifically, OIG found that the documentation associated with
                   some suppliers’ claims did not: (1) indicate the medical necessity for DTS
                   quantities in excess of utilization guidelines; (2) support refills of DTS;
                   and (3) contain complete physician orders, and/or contain proof-of-
                   delivery records. OIG also found that DME MACs did not have edits (i.e.,
                   system processes) to prevent one supplier from billing for DTS when the
                   beneficiary should still have DTS provided by another supplier.35, 36




                   28
                      CMS, Round 2 and National Mail Order Single Payment Amounts. Accessed at
                   http://www.dmecompetitivebid.com/palmetto/cbicrd2.nsf/DocsCat/Single%20Payment%

                   20Amounts on January 30, 2013. 

                   29
                      P.L. 112-240, the American Taxpayer Relief Act of 2012. 

                   30
                      According to CMS, the Competitive Bidding Program helps prevent Medicare fraud

                   and abuse because “all suppliers in the program must be licensed, meet strict quality and

                   financial standards, and be accredited by a national accreditation organization.” Further, 

                   “a reduction in excessive payment amounts makes competitively bid items less attractive 

                   targets for fraud and abuse.” CMS, Medicare’s DMEPOS Competitive Bidding Program. 

                   Accessed at http://www.cms.gov/Outreach-and-
                   Education/Outreach/Partnerships/Downloads/PartnerFAQJuly2012.pdf on 

                   August 14, 2012. 

                   31
                      CMS, Competitive Bidding Update—One Year Implementation Update, April 17, 2012. 

                   Accessed at http://www.cms.gov/Medicare/Medicare-Fee-for-Service-
                   Payment/DMEPOSCompetitiveBid/Downloads/Competitive-Bidding-Update-One-Year-
                   Implementation.pdf on April 25, 2012. 

                   32
                      Ibid. 

                   33
                      Ibid. 

                   34
                      OIG, Review of Medicare Claims for Home Blood-Glucose Test Strips and Lancets—

                   Durable Medical Equipment Medicare Administrative Contractor for Jurisdiction A
                   (A-09-08-00043), August 2010. 

                   35
                      Ibid. 

                   36
                      DME MACs process and pay Medicare Part B claims. 


Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)       6
                   In 2012, OIG issued a fraud alert notifying beneficiaries of common
                   schemes that suppliers use to submit fraudulent Medicare DTS claims.37
                   OIG encouraged beneficiaries not to accept DTS from suppliers in
                   exchange for the beneficiaries’ Medicare or financial information. This
                   includes not accepting: (1) diabetes supplies in the mail that beneficiaries
                   did not order; (2) “free” diabetes supplies, such as DTS; and (3) other
                   “free” supplies such as heating pads, lift seats, foot orthotics, or joint
                   braces.
                   In late 2012 and early 2013, OIG issued two reports on DTS. In the first
                   report, OIG found an increase in claims for non-mail order DTS between
                   2010 and 2011. OIG determined that the increase was partly due to
                   suppliers improperly billing Medicare for the more expensive, non-mail
                   order DTS in 2011, when beneficiaries reported having received the less
                   expensive, mail order DTS.38 OIG also found that some beneficiaries in
                   CBAs reported inappropriate supplier activities (e.g., routinely waiving
                   copayments or sending unsolicited DTS). As summarized in a 2013
                   report, OIG reviewed a supplier’s 2010 DTS claims and determined that
                   the supplier—in accordance with Medicare billing requirements—had
                   submitted claims for non-mail order diabetic testing supplies without the
                   KL modifier.39

                   METHODOLOGY
                   We analyzed 2010 and 2011 DTS claims from CMS’s Durable Medical
                   Equipment Standard Analytical File. We analyzed approximately
                   11.2 million DTS claims billed by 51,695 suppliers in 2011 and
                   approximately 11.3 million DTS claims billed by 51,576 suppliers in
                   2010.40
                   We also used CMS’s Inpatient Standard Analytical File and SNF Standard
                   Analytical File to analyze inpatient claims from hospitals and SNFs for
                   beneficiaries associated with DTS claims. We used beneficiaries’ Health
                   Insurance Claim Numbers to link these hospital and SNF claims to the
                   DTS claims. Finally, we determined suppliers’ geographic areas by using
                   the National Provider Identifier numbers from their claims to look them up

                   37
                      OIG, Fraud Alert for People with Diabetes. Accessed at
                   http://www.oig.hhs.gov/newsroom/news-releases/2012/alert20120309.asp on
                   May 25, 2012. 

                   38
                      OIG, Supplier Billing for Diabetes Test Strips and Inappropriate Supplier Activities in

                   Competitive Bidding Areas (OEI-04-11-00760), November 2012. 

                   39
                      OIG, Neighborhood Diabetes, Inc., Submitted Claims for Diabetic Testing Supplies 

                   Without the KL Modifier in Accordance With Medicare Billing Requirements 

                   (A-09-l1-02073), January 2013.

                   40
                      We excluded all claims with a Medicare-allowed amount of zero.


Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)        7
                   in the National Plan and Provider Enumeration System (NPPES) and find
                   their ZIP Codes.41
                   Identification of Suppliers who Inappropriately Billed for
                   Diabetes Test Strips
                   We analyzed 2011 DTS claims data from the 18-month update of CMS’s
                   Durable Medical Equipment Standard Analytical File to determine the
                   number of claims that (1) were billed for beneficiaries without a
                   documented diagnosis code for diabetes; (2) inappropriately overlapped
                   with an inpatient hospital stay; or (3) inappropriately overlapped with an
                   inpatient SNF stay. We also calculated the total inappropriate
                   Medicare-allowed amounts for these DTS claims and identified suppliers
                   associated with these claims.
                   DTS claims for beneficiaries without a documented diagnosis code for
                   diabetes. We identified DTS claims with a diagnosis code that did not
                   signify diabetes.42 ICD-9 codes between 249.00 and 250.93 indicate that a
                   beneficiary has diabetes.43 Claims for DTS without a diagnosis code in
                   this range do not meet Medicare coverage requirements.
                   We calculated the number of and Medicare-allowed amounts for DTS
                   claims without a diabetes diagnosis code in 2011. We did not examine
                   supplier documentation to determine whether it indicated a diabetes
                   diagnosis.
                   Medicare DTS claims for beneficiaries during inpatient hospital stays and
                   SNF stays. Medicare Part B reimburses suppliers for DTS that
                   beneficiaries use in their homes. Part B claims for DTS provided to
                   beneficiaries during inpatient hospital or SNF stays are inappropriate.44 If
                   a beneficiary is hospitalized or admitted to a SNF, he or she should receive
                   DTS from the facility and not from a separate supplier.
                   We identified DTS claims that overlapped with an inpatient hospital or
                   SNF stay. Specifically, if the start date on the claim fell between the
                   admission date and discharge date for an inpatient hospital stay or SNF
                   stay covered by Medicare Part A, we determined that the claim was
                   inappropriate.

                   41
                      The NPPES assigns a National Provider Identifier to all health care providers that 

                   enroll in Medicare. It also contains other relevant information for enrollment, such as the 

                   provider’s physical location, type, and owner. NPPES data are self-reported by suppliers. 

                   42
                      To identify beneficiaries’ diagnoses, we reviewed the ICD-9 codes listed on DTS 

                   claims. 

                   43
                      Medicare LCDs for Glucose Monitors (L11530, L27231, L11520, and L196). 

                   44
                      Medicare Claims Processing Manual, Durable Medical Equipment, Prosthetics, 

                   Orthotics, and Supplies (ch. 20, section 01). Accessed at 

                   http://www.cms.gov/manuals/downloads/clm104c20.pdf on May 8, 2012. 


Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)        8
                   We calculated the number of and Medicare-allowed amounts for DTS
                   claims that overlapped with a date that the patient was in a hospital or
                   SNF. We also describe how many of the instances of inappropriate billing
                   occurred 1 or 2 days preceding the beneficiary’s discharge from the
                   inpatient hospital or SNF.
                   We excluded appropriate instances of overlap. Appropriate instances of
                   overlap occur when suppliers bill for DTS: (1) on the day a beneficiary is
                   admitted to or discharged from an inpatient hospital or SNF or (2) during a
                   beneficiary’s leave of absence from an inpatient hospital or SNF stay.45
                   Identification of Suppliers That Had Questionable DTS Billing
                   We analyzed 2010 and 2011 DTS claims from the 18-month update of
                   CMS’s Durable Medical Equipment Standard Analytical File. We
                   developed six measures of questionable billing on the basis of the results
                   of past OIG analyses and fraud investigations related to DTS suppliers, as
                   well as input from CMS staff. We considered a DTS supplier’s billing to
                   be unusually high, or questionable, on each of the six measures if it was
                   greater than the 75th percentile plus 1.5 times the interquartile range (i.e.,
                   the Tukey method).46 Although some of this billing may be legitimate,
                   suppliers that bill for extremely high amounts warrant further scrutiny.
                   For each questionable-billing characteristic, we identified those suppliers
                   that submitted an unusually high percentage of claims. For each
                   characteristic, we counted as suppliers with questionable billing those for
                   whom Medicare allowed $1,000 or more for each questionable-billing
                   characteristic. Questionable-billing characteristics pertain to supplier
                   claims for both mail order and non-mail order DTS, unless otherwise
                   specified. The six measures of questionable billing we developed were:
                   Claims for non-mail order DTS provided to beneficiaries residing an
                   unusually long distance from suppliers. We considered suppliers to have
                   questionable billing if they submitted claims for non-mail order DTS (i.e.,
                   claims without the KL modifier) provided to beneficiaries residing an
                   unusually long distance from them. Mail order suppliers have an incentive
                   to bill DTS as non-mail order because of the higher payment rates of
                   non-mail order DTS. Suppliers with high percentages of non-mail order
                   DTS claims for beneficiaries that reside an unusually long distance away

                   45
                      Medicare Claims Processing Manual, Durable Medical Equipment, Prosthetics,
                   Orthotics, and Supplies (ch. 20, section 01). Accessed at
                   http://www.cms.gov/manuals/downloads/clm104c20.pdf on May 8, 2012.
                   46
                      This is a standard exploratory method for identifying members of a population with
                   unusually high values on a given statistic compared to the rest of the population when no
                   established benchmarks exist. See J.W. Tukey, Exploratory Data Analysis,
                   Addison-Wesley, 1977.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)       9
                   are questionable because the suppliers may be inappropriately billing for
                   mail order DTS as non-mail order to receive the higher payment rate. We
                   used the Tukey method to determine the threshold for unusually long
                   distances to be 20 miles.47, 48 We conducted an additional analysis using a
                   threshold of 50 miles.49
                   DTS claims for beneficiaries in excess of utilization guidelines. We
                   considered suppliers to have questionable billing if they had high
                   percentages of DTS claims for beneficiaries in excess of Medicare
                   utilization guidelines. Medicare covers different amounts of DTS
                   depending on a beneficiary’s medical condition. Medicare covers up to
                   100 DTS (i.e., 2 units) every month for insulin-dependent beneficiaries
                   and every 3 months for non-insulin-dependent beneficiaries.50 Medicare
                   allows additional DTS if deemed medically necessary and documented in
                   physician records.
                   Beneficiaries associated with DTS claims at perfectly regular intervals.
                   We considered suppliers to have questionable billing if they had high
                   percentages of beneficiaries who received DTS at perfectly regular
                   intervals. Beneficiaries must specifically request a DTS refill from a
                   supplier before a supplier dispenses it.51 Suppliers must not refill an order
                   or automatically dispense a quantity of DTS on a predetermined basis.
                   DTS claims that regularly fall on the exact anniversary of the previous
                   claim for the same beneficiary may indicate that a supplier is
                   automatically providing DTS and not seeking the beneficiaries’
                   authorization.
                   Beneficiaries associated with multiple DTS claims submitted by the same
                   supplier during overlapping time periods. We considered suppliers to
                   have questionable billing if they had high percentages of beneficiaries for
                   whom they had submitted multiple DTS claims during overlapping time

                   47
                      We calculated distance by determining the number of miles between the center of the
                   ZIP code of the supplier’s physical location and the center of the ZIP Code for the
                   corresponding beneficiary. Therefore, a distance of 0 miles indicates that the beneficiary
                   and supplier were in the same ZIP Code. The median distance between ZIP Codes was 2
                   miles and the mean distance was 34.2 miles. Distances ranged between 0 and 8,230
                   miles. For example, one beneficiary’s permanent residence was in Guam, but he or she
                   had claims for non-mail order DTS from a supplier in Florida.
                   48
                      Beneficiaries at a temporary residence (e.g., on vacation) may obtain non-mail order
                   DTS from a local supplier. For beneficiaries in CBAs, suppliers must submit claims with
                   the KT modifier for non-mail order DTS furnished to beneficiaries who have traveled
                   outside the CBA in which they reside. In 2011, there were 6,251 DTS claims with the
                   KT modifier. We removed these claims from our analysis.
                   49
                      We judgmentally selected 50 miles to remove suppliers that may have used supplier
                   vehicles to deliver the DTS and were properly billing for non-mail order DTS.
                   50
                      Medicare LCDs for Glucose Monitors (L11530, L27231, L11520, and L196).
                   51
                      CMS, Medicare Program Integrity Manual. Pub. 100-04, ch. 5 § 2.6.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)       10
                   periods. Suppliers may refill an order for DTS only when beneficiaries
                   have nearly exhausted the previous supply and specifically request that the
                   DTS be dispensed.52 Suppliers may provide DTS refills on or after the
                   anniversary of the prior DTS order/shipping date (i.e., the start date).
                   Previous OIG work found that many suppliers submit claims for the same
                   beneficiary for DTS during overlapping time periods.53
                   DTS claims for a given beneficiary in 2010 but not in 2011. We
                   considered suppliers to have questionable billing if they had high
                   percentages of DTS claims for beneficiaries who received DTS in 2010
                   but did not receive DTS in 2011.54 Diabetes is a chronic disease that
                   requires regular medical attention. Beneficiaries who needed DTS in 2010
                   would likely still need DTS in 2011, provided that they are still Medicare
                   beneficiaries.55
                   Beneficiaries with DTS claims from any supplier in 2010 but not in 2011
                   may have received DTS in 2010 from suppliers who provided excess DTS
                   before the start of the Competitive Bidding Program. In addition, some
                   beneficiaries may not have received DTS from the supplier; the supplier
                   may have been fraudulently billing on behalf of the beneficiary in 2010.
                   Beneficiaries associated with overlapping DTS claims from more than one
                   supplier. We considered suppliers to have questionable billing if they had
                   high percentages of beneficiaries with overlapping DTS claims from more
                   than one supplier. When multiple suppliers submit DTS claims for the
                   same beneficiary during overlapping time periods, the beneficiary may
                   receive excess DTS (1) not authorized by the attending physician, and/or
                   (2) in excess of Medicare utilization guidelines. Previous OIG work found
                   that DME MACs allowed DTS claims from multiple suppliers for one
                   beneficiary during overlapping time periods.
                   Analysis of Geographic Areas of DTS Suppliers With
                   Questionable Billing
                   We determined the geographic areas of DTS suppliers with questionable
                   billing in 2011. To do this, we obtained each supplier’s physical location
                   ZIP Code from NPPES and identified suppliers’ Core Based Statistical


                   52
                      CMS, Medicare Program Integrity Manual. Pub. 100-04, ch. 5 § 2.6.
                   53
                      OIG, Blood Glucose Test Strips: Inappropriate Medicare Payments,

                   OEI-03-98-00230, June 2000. 

                   54
                      This category of beneficiaries includes only those who did not receive DTS in 2011 

                   from any supplier. It does not include beneficiaries who switched suppliers—i.e., those
                   who received DTS in 2010 from one supplier and in 2011 from a different supplier.
                   55
                      We used the Medicare Enrollment Database to identify and remove from our analysis
                   beneficiaries who (1) were associated with DTS in 2010 but not in 2011 and (2) had dates
                   of death in either 2010 or 2011.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)     11
                   Areas (CBSA).56, 57 Four hundred twenty-eight suppliers (9 percent) were
                   in rural areas (i.e., not in a CBSA).
                   In geographic areas with the highest totals of questionable
                   Medicare-allowed amounts, we calculated the number of DTS suppliers
                   with questionable billing out of the total number of DTS suppliers, and the
                   number of claims associated with the questionable-billing suppliers. In
                   addition, we identified the geographic areas of suppliers with four or more
                   questionable-billing characteristics.
                   Analysis to Determine Medicare-Allowed Amounts in
                   Questionable Billing for Suppliers in CBAs Before and After
                   Implementation of the Competitive Bidding Program
                   We examined the extent to which Medicare-allowed amounts for mail
                   order DTS questionable billing in CBAs decreased after the Competitive
                   Bidding Program was implemented. To do this, we identified
                   beneficiaries who (1) received mail order DTS in 2010 in the areas that
                   became CBAs in 2011 and (2) received mail order DTS in 2011 in CBAs.
                   (We refer to these beneficiaries as “beneficiaries in CBAs”).
                   For these beneficiaries, we calculated the amount that Medicare allowed in
                   questionable billing for mail order DTS and the number of suppliers with
                   questionable billing. We calculated the percentage change in the amount
                   that Medicare allowed in questionable billing for mail order DTS and the
                   number of suppliers with questionable billing between 2010 and 2011.
                   For context and to establish a baseline, we also conducted this same
                   analysis for beneficiaries who were not affected by the Competitive
                   Bidding Program. These beneficiaries (1) lived in non-CBA areas in 2011
                   and areas that match non-CBA areas in 2010 (we refer to these
                   beneficiaries as “beneficiaries in non-CBA areas”) and/or (2) received
                   non-mail order DTS in 2011 and 2010.
                   We did not include two questionable-billing characteristics in our analysis
                   of suppliers’ questionable billing in CBAs before and after implementation
                   of the Competitive Bidding Program. First, we did not include the
                   characteristic of suppliers’ having claims for non-mail order DTS provided


                   56
                      A CBSA is a region around an urban center that has at least 10,000 people. We used
                   DTS suppliers’ ZIP Codes to determine their CBSAs. CBSAs may be categorized as
                   metropolitan or micropolitan. A metropolitan area is defined as a core urban area with a
                   population of 50,000 people or more. A micropolitan area is defined as an urban cluster
                   of at least 10,000 and fewer than 50,000 people. U.S. Census Bureau, Metropolitan and
                   Micropolitan Definition Files. Accessed at
                   http://www.census.gov/population/metro/data/def.html on May 18, 2012.
                   57
                      We used the NPPES active NPI file as of August 2011 to identify the supplier ZIP
                   Codes for the geographic areas analysis. NPPES data are self-reported by suppliers.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)       12
                   to beneficiaries residing an unusually long distance from them. We did
                   not include this characteristic because it provides information only about
                   non-mail order DTS, and the Competitive Bidding Program includes only
                   mail order DTS. Second, we did not include the characteristic of
                   suppliers’ having DTS claims for beneficiaries in 2010 but not in 2011.
                   We did not include this characteristic because it specifies a comparison
                   between 2010 and 2011 and identifies suppliers active in 2010, and the
                   Competitive Bidding Program was not in place at that time.
                   Limitations
                   The six questionable-billing characteristics included in our analysis are not
                   intended to be a comprehensive set of characteristics for identifying
                   questionable billing for DTS under Medicare. Additionally, although the
                   presence of these characteristics raises questions about the appropriateness
                   of the DTS claims submitted by suppliers, we did not conduct a medical
                   record review to determine whether the claims that suppliers submitted for
                   DTS were inappropriate or potentially fraudulent.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   13
                   FINDINGS
                   In 2011, Medicare inappropriately allowed $6 million
                   for DTS claims with three types of errors
                   Medicare coverage policies prohibit payment for DTS claims without an
                   appropriate documented diagnosis code for diabetes and with dates of
                   services that overlap with an inpatient hospital or SNF stay.58 In addition,
                   CMS has implemented claims-processing edits to prevent these payments.
                   However, Medicare inappropriately allowed $6 million for DTS suppliers
                   that had at least one of these three types of errors in 2011.
                   These inappropriate claims represent less than 1 percent of the $1.1 billion
                   allowed for DTS in 2011, but they still pose a program vulnerability. The
                   DTS suppliers with these inappropriate claims represented 11 percent of
                   all DTS suppliers in 2011. On average, these suppliers inappropriately
                   received $999 from Medicare in 2011 for DTS. One supplier
                   inappropriately received $692,036 for DTS, the highest amount for any
                   one supplier in 2011.
                   In 2011, 5,803 suppliers had claims with at least one of the three types of
                   errors we analyzed. A total of 5,045 DTS suppliers exhibited one type of
                   error, 667 suppliers exhibited two types of errors, and 91 exhibited all
                   three.59 Table 1 shows the inappropriate Medicare-allowed amount,
                   number of claims, and number of suppliers by the three types of errors we
                   analyzed.




                   58
                      Medicare LCDs for Glucose Monitors (L11530, L27231, L11520, and L196). CMS, 

                   Medicare Program Integrity Manual. Pub. 100-04, ch. 20 § 10.2.

                   59
                      OIG analysis of Part B DTS claims, 2012.


Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   14
                   Table 1: Inappropriate Medicare-Allowed Claims for Diabetes Test Strips, 2011



                                                               Inappropriate
                                                                                                              Number of
                   Error Type                               Medicare-Allowed          Number of Claims
                                                                                                              Suppliers*
                                                                     Amount

                   DTS claims for beneficiaries
                   without a documented                              $2,315,584                    23,778         2,211
                   diagnosis code for diabetes
                   DTS claims that
                   inappropriately overlapped                        $3,382,550                    25,589         4,115
                   with a hospital stay

                   DTS claims that
                   inappropriately overlapped                          $112,787                        908          326
                   with an SNF stay


                        Total                                        $5,798,689                    50,170         5,803

                   *Sum of column exceeds total because some suppliers had multiple types of errors.
                   Source: OIG analysis of Part B DTS claims, 2012.


                   Medicare inappropriately allowed $2.3 million in 2011 for DTS
                   claims for beneficiaries without a documented diagnosis code
                   for diabetes
                   In 2011, Medicare allowed $2.3 million for DTS claims with a diagnosis
                   code that did not signify diabetes. The top five diagnoses associated with
                   these inappropriate claims were: chronic airway obstruction, long-term
                   use of insulin, urinary incontinence, osteoarthrosis, and obstructive sleep
                   apnea.60
                   Medicare inappropriately allowed $3.5 million in 2011 for DTS
                   claims that overlapped with a stay in an inpatient hospital or a
                   SNF
                   Specifically, overlap between DTS claims and an inpatient hospital stay
                   accounted for $3.4 million in inappropriate Medicare claims in 2011.
                   Nationwide, Medicare allowed 25,589 claims from 4,115 DTS suppliers
                   when DTS claims and an inpatient hospital stay inappropriately
                   overlapped. Of these inappropriate claims, 5,022 claims (20 percent)
                   occurred 1 day before the discharge date from the inpatient hospital, and
                   an additional 3,852 claims (15 percent) occurred 2 days before the
                   discharge date.
                   Overlap between DTS claims and a SNF stay accounted for an additional
                   $112,787. In 2011, Medicare allowed 908 claims from 326 DTS suppliers
                   when DTS claims and an SNF stay inappropriately overlapped. Of these

                   60
                      The ICD-9 code for long-term use of insulin is V58.67. This does not fall within the
                   range of ICD-9 codes required for DTS billing (i.e., 249.00–250.93). In 2011, Medicare
                   allowed $162,406 for DTS for beneficiaries with the V58.67 diagnosis code.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                   15
                   inappropriate claims, 99 claims (11 percent) occurred 1 day before the
                   discharge date from the SNF, and 73 claims (8 percent) occurred 2 days
                   before the discharge date.
                   Medicare allowed $425 million in questionable billing
                   to 10 percent of DTS suppliers
                   In 2011, 10 percent (4,959 of 51,695) of DTS suppliers exceeded the
                   threshold that indicated unusually high billing for at least one of our six
                   questionable-billing measures.61
                   One percent (758) of the DTS suppliers exceeded the thresholds for two or
                   more measures. Table 2 shows the number and percentage of DTS
                   suppliers by the number of measures of questionable billing for which
                   DTS suppliers exceeded thresholds.

                   Table 2: Number and Percentage of DTS Suppliers by Number of Questionable-Billing
                   Measures for Which Suppliers Exceeded Thresholds That Indicate Unusually High Billing,
                   2011

                   Number of Measures of
                   Questionable Billing for Which                                                      Percentage of DTS
                                                               Number of DTS Suppliers
                   DTS Suppliers Exceeded                                                                      Suppliers*
                   Thresholds

                   0                                                                   46,736                       90%
                   1                                                                    4,201                         8%
                   2                                                                     634                          1%
                   3                                                                     111                          0%
                   4                                                                      13                          0%
                   5 or more                                                               0                          0%
                       Total                                  51,695                            100%
                   Source: OIG analysis of Part B DTS claims, 2012. 

                   *The percentages do not sum to 100 percent because of rounding. 




                   For each measure of questionable billing, Table 3 shows the median
                   among all DTS suppliers, the threshold that indicated unusually high
                   billing, the range of unusually high billing, the Medicare-allowed amounts
                   for claims associated with questionable billing, and the number of DTS
                   suppliers with unusually high billing.




                   61
                      Of these, 1,640 DTS suppliers with questionable billing also had at least one
                   inappropriately allowed claim in 2011.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                     16
Table 3: DTS Suppliers with Unusually High Billing by Measure of Questionable Billing, 2011

                                                                                        DTS Suppliers With Unusually High Billing**

                                                     Median                                                      Medicare-
                                                   Among All                                                       Allowed
Measure of Questionable Billing
                                                         DTS                                                  Amounts for          Number of
                                                   Suppliers*        Threshold                   Range
                                                                                                               Claims with          Suppliers
                                                                                                             Questionable
                                                                                                                    Billing

Average percentage of suppliers’
non-mail order DTS claims for                               5%               25%         25% to 100%             $55 million             1,689
beneficiaries that resided an
unusually long distance away

Average percentage of suppliers’
DTS claims in excess of Medicare                            7%               26%         26% to 100%            $242 million             1,378
utilization guidelines

Average percentage of suppliers’
beneficiaries that were associated
                                                            3%               11%         11% to 100%             $67 million                851
with DTS at perfectly regular
intervals
Average percentage of suppliers
that had an unusually high
percentage of beneficiaries
                                                           15%               38%         38% to 100%             $10 million                745
associated with overlapping DTS
claims submitted by the same
supplier

Average percentage of suppliers’
DTS claims for beneficiaries in                            15%               40%         40% to 100%            $2 million***               683
2010 but not in 2011


Average percentage of suppliers’
beneficiaries associated with
                                                           10%               26%         26% to 100%            $102 million                508
overlapping DTS claims from more
than one supplier


    Total****                                                                                                  $425 million              4,959

*The median (i.e., the 50th percentile) indicates that half of all DTS suppliers fell below this value. 

**We considered a DTS supplier’s billing to be unusually high if it was greater than the 75th percentile plus 1.5 times the interquartile range. 

***This questionable-billing characteristic identifies 2010 Medicare-allowed amounts. 

****Sum of column exceeds total because some suppliers had multiple questionable-billing characteristics. 

Source: OIG analysis of Part B data for DTS, 2012. 


                        In 2011, 1,689 suppliers had an unusually high percentage of
                        non-mail order DTS claims for beneficiaries residing an
                        unusually long distance from suppliers
                        In 2011, Medicare allowed $55 million in questionable billing to
                        1,689 DTS suppliers for beneficiaries who resided an unusually long
                        distance away (i.e., over 20 miles) from suppliers.62 Further, Medicare
                        allowed a total of $4.2 million to 78 suppliers for which 100 percent of


                        62
                           Some suppliers in this analysis may have delivered the DTS to beneficiaries in
                        supplier-owned vehicles and, therefore, appropriately billed the DTS as non-mail order.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                                       17
                   their non-mail order DTS claims were for beneficiaries residing over
                   20 miles away. Additionally, Medicare allowed 46 suppliers over
                   $100,000 each for non-mail order DTS associated with beneficiaries
                   residing over 20 miles from suppliers’ locations.
                   For one supplier in Fort Lauderdale, FL, Medicare allowed $2.3 million
                   for 14,741 non-mail order claims for beneficiaries who resided over
                   20 miles away. Medicare allowed over $1 million to each of two
                   additional suppliers in Woburn, MA, and Fort Worth, TX.63
                   When we used 50 miles as the distance threshold, we found that Medicare
                   allowed over $19 million to 994 DTS suppliers for beneficiaries that
                   resided more than 50 miles away from suppliers. Further, Medicare
                   allowed $4.1 million to suppliers for which 100 percent of their non-mail
                   order DTS claims were for beneficiaries residing over 50 miles away from
                   the supplier.
                   In 2011, 1,378 suppliers had an unusually high percentage of
                   DTS claims in excess of utilization guidelines
                   Medicare allowed $242 million in questionable billing to 1,378 suppliers
                   that had high percentages of DTS claims in excess of utilization guidelines
                   in 2011. For 12 suppliers, 100 percent of their DTS claims exceeded
                   utilization guidelines. For 245 suppliers, 50 percent or more of their DTS
                   claims exceeded utilization guidelines. Twenty-five suppliers had over
                   $1 million each in DTS claims that exceeded utilization guidelines.
                   In 2011, 851 suppliers had an unusually high percentage of
                   beneficiaries associated with DTS at perfectly regular intervals
                   Medicare allowed $67 million in questionable billing to 851 DTS
                   suppliers that had high percentages of beneficiaries associated with DTS at
                   perfectly regular intervals. For one supplier, 100 percent of its
                   beneficiaries were associated with DTS on the exact anniversary of the
                   previous claim. For 12 suppliers, Medicare allowed over $1 million each
                   in DTS claims for beneficiaries at perfectly regular intervals.
                   In 2011, 745 suppliers had an unusually high percentage of
                   beneficiaries associated with overlapping DTS claims
                   submitted by the same supplier
                   Medicare allowed $10 million in questionable billing to 745 DTS
                   suppliers that had high percentages of beneficiaries with multiple DTS
                   claims submitted by the same supplier during overlapping time periods.
                   For three suppliers, 100 percent of their beneficiaries were associated with

                   63
                     There are 676 and 909 suppliers, respectively, in the Boston, MA, CBSA (which
                   includes Woburn, MA) and the Dallas-Fort Worth, TX, CBSA.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   18
                   multiple DTS claims from the same supplier during the same time period.
                   For two suppliers, Medicare allowed over $1 million each for beneficiaries
                   with multiple DTS claims from the same supplier during the same time
                   period. For 198 suppliers, 50 percent or more of their beneficiaries were
                   associated with multiple DTS claims from the same supplier during the
                   same time period.
                   In 2011, 683 DTS suppliers had an unusually high percentage
                   of DTS claims for beneficiaries associated with DTS from any
                   supplier in 2010 but not in 2011
                   In 2010, Medicare allowed $2 million in questionable billing to 683 DTS
                   suppliers that had high percentages of Medicare DTS claims for
                   beneficiaries in 2010 but not in 2011. These beneficiaries did not receive
                   DTS from any other supplier in 2011. For 33 suppliers, over 75 percent of
                   their allowed claims were for beneficiaries associated with DTS in 2010
                   but not in 2011.
                   In 2011, 508 suppliers had an unusually high percentage of
                   beneficiaries associated with overlapping DTS claims from
                   more than one supplier
                   Medicare allowed $102 million in questionable billing to 508 DTS
                   suppliers that had high percentages of beneficiaries with DTS from at least
                   one other supplier during overlapping time periods. For 77 suppliers, at
                   least 50 of their beneficiaries had claims from at least one additional
                   supplier during overlapping time periods in 2011. For one supplier,
                   100 percent of its beneficiaries had DTS claims from at least one other
                   supplier during overlapping time periods in 2011.
                   Seventy-seven percent of questionable billing was
                   associated with suppliers in 10 geographic areas
                   In 2011, 77 percent of questionable billing ($329 million of the total
                   $425 million) was associated with suppliers in 10 geographic areas
                   nationwide.64 These 10 geographic areas housed 20 percent (999 of
                   4,959) of DTS suppliers with questionable billing. Overall, the 4,959 DTS
                   suppliers with questionable billing were in 651 CBSAs and 428 rural ZIP
                   Codes.65 Eighty-six geographic areas had more than 8 suppliers with
                   questionable DTS billing in 2011; 301 geographic areas did not have any
                   suppliers with questionable DTS billing in 2011.66

                   64
                      Nine of the top 10 geographic areas were CBSAs. Amory, MS, is a rural area. 

                   65
                      There are 955 CBSAs in the United States. There were 4,464 suppliers in CBSAs and 

                   428 suppliers in rural ZIP Codes with at least one questionable billing characteristic. The 

                   ZIP Codes of 67 suppliers were not listed in NPPES; therefore, we cannot determine 

                   whether these suppliers were in rural locations or CBSAs. 

                   66
                      The average number of questionable billing suppliers per geographic area was seven.


Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)         19
                   Table 4 lists these geographic areas, the number of suppliers with
                   questionable billing, the total number of suppliers, the percentage of
                   suppliers with questionable billing, and the Medicare-allowed amount for
                   suppliers with questionable billing.

                    Table 4: Geographic Areas With the Highest Number of Suppliers With DTS Questionable
                    Billing, 2011
                                                                                                                    DTS
                                                                             Number of
                                                                                                              Suppliers
                                                           Questionable            DTS           Total
                                                                                                                   With
                                                              Medicare-       Suppliers      Number of
                    Geographic Area                                                                       Questionable
                                                               Allowed             With           DTS
                                                                                                          Billing out of
                                                               Amount      Questionable       Suppliers
                                                                                                              Total DTS
                                                                                 Billing
                                                                                                              Suppliers


                    Port St. Lucie, FL                     $114,963,257              11             79             14%


                    Miami-Fort Lauderdale-
                                                           $113,196,111             222           1125             20%
                    Pompano Beach, FL

                    Nashville-Davidson-
                                                            $34,698,435              33            330             10%
                    Murfreesboro-Franklin, TN

                    New York-Northern New Jersey-
                                                            $15,497,578             358           3647             10%
                    Long Island, NY-NJ-PA

                    Tampa-St. Petersburg-
                                                            $14,208,167              61            571             11%
                    Clearwater, FL

                    Amory, MS                                 $9,399,811              4              8             50%


                    Phoenix-Mesa-Glendale, AZ                 $7,325,878             63            579             11%


                    Kansas City, MO-KS                        $7,256,647             30            307             10%

                    Boston-Cambridge-Quincy, MA-              $6,481,774             25            676              4%
                    NH
                    Los Angeles-Long Beach-Santa              $5,844,420            192           1628             12%
                    Ana, CA
                       National                            $424,905,138           4,959         51,695             10%

                   Source: OIG analysis of Part B data for DTS, 2012.

                   In addition, 13 suppliers with questionable billing had 4 or more
                   questionable billing characteristics. These 13 suppliers were in 11
                   CBSAs. Three suppliers with four or more questionable-billing
                   characteristics had over $1 million in allowed DTS claims. These
                   suppliers were in Miami, FL ($13.9 million), Atlanta, GA ($3.7 million),
                   and Cleveland, OH ($1.6 million).
                   Appendix A lists the geographic areas of DTS suppliers with four or more
                   measures of questionable billing in 2011. Appendix B lists the geographic
                   areas of the top 10 questionable-billing DTS suppliers in 2011.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                20
                   The Competitive Bidding Program appears to have
                   reduced questionable billing for mail order DTS in
                   CBAs
                   The amount Medicare allowed for mail order DTS in CBAs for suppliers
                   exhibiting questionable billing decreased by 87 percent ($28.9 million)
                   between 2010 and 2011. This corresponds to when the Competitive
                   Bidding Program went into effect. Questionable billing in non-CBA areas
                   did not have a similar decrease.
                   As shown in Table 5, the amount Medicare allowed for mail order DTS for
                   suppliers exhibiting questionable billing in CBAs decreased from
                   $33.2 million to $4.3 million between 2010 and 2011. We did not find this
                   trend in areas that were not affected by the Competitive Bidding Program.
                   That is, there was only a small decrease in the amount Medicare allowed
                   for suppliers with questionable billing for mail order DTS for beneficiaries
                   in non-CBA areas (i.e., beneficiaries not affected by the Competitive
                   Bidding Program) between 2010 and 2011.
                     Table 5: Medicare-Allowed Amounts for Suppliers With Questionable Billing for Mail Order
                     DTS in CBAs and Non-CBA Areas in 2010 and 2011
                                                                                                            Change
                     Medicare-Allowed Amount                              2010                2011     Between 2010
                                                                                                           and 2011

                     Beneficiaries in CBAs                          $33,232,992        $4,291,370              -87%

                     Beneficiaries in Non-CBA
                                                                   $395,286,785      $382,894,324               -3%
                     Areas

                   Source: OIG analysis of Part B data for DTS, 2012.

                   Additionally, as shown in Table 6, the number of suppliers with
                   questionable billing that provided mail order DTS to beneficiaries in
                   CBAs decreased by 36 percent from 2010 to 2011. We did not find this
                   trend in areas that were not affected by the Competitive Bidding Program.
                   That is, the number of suppliers with questionable billing for mail order
                   DTS associated with beneficiaries in non-CBA areas increased by
                   6 percent between 2010 and 2011.
                     Table 6: Number of Suppliers With Questionable Billing for Mail Order DTS in CBAs and
                     Non-CBA Areas in 2010 and 2011
                                                                                                     Change Between
                     Number of Suppliers                                 2010                2011
                                                                                                       2010 and 2011

                     Beneficiaries in CBAs                                 303                194              -36%

                     Beneficiaries in Non-CBA areas                        660                697                6%

                   Source: OIG analysis of Part B data for DTS, 2012.

                   Based on our analysis of 2010 and 2011 data, these data suggest that the
                   Competitive Bidding Program was successful in reducing the amount


Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)               21
                   Medicare allowed in questionable billing, and the number of suppliers
                   with questionable billing, for mail order DTS.
                   See Appendix C for the Medicare-allowed amounts for suppliers with
                   questionable billing, and the number of suppliers with questionable
                   billing, for mail order DTS in CBAs and non-CBA areas. Appendix C
                   also contains these data for non-mail order DTS.




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   22
                   CONCLUSION AND RECOMMENDATIONS
                   In 2011, Medicare allowed approximately $1.1 billion to 51,695 suppliers
                   for DTS provided to 4.6 million beneficiaries. Recent investigations and
                   prior OIG studies have found that DTS is vulnerable to fraud, waste, and
                   abuse. This report found continued vulnerabilities in Medicare payments
                   for DTS claims.
                   Specifically, we found that Medicare inappropriately allowed $6 million
                   for DTS claims with three types of errors. Further, we found that in 2011,
                   Medicare allowed $425 million in questionable billing to 10 percent of
                   DTS suppliers. Additionally, 77 percent of suppliers with questionable
                   billing were in 10 geographic areas nationwide. However, based on our
                   data from 2010 and 2011, the Competitive Bidding Program appears to
                   have reduced questionable billing for mail order DTS in CBAs. Similar
                   reductions in questionable billing did not occur in non-CBA areas or for
                   non-mail order DTS.
                   We recommend that CMS:
                   Enforce existing edits to prevent inappropriate DTS claims
                   CMS should enforce claims-processing edits to prevent inappropriate
                   claims that do not include an appropriate diabetes diagnosis code.
                   Additionally, these edits should identify DTS claims that overlap with an
                   inpatient hospital stay or a SNF stay, and flag them for further review to
                   ensure the overlap is appropriate (i.e., on the day of discharge or during a
                   leave of absence).
                   Increase monitoring of DTS suppliers’ Medicare billing
                   CMS should instruct DME MACs and Medicare Zone Program Integrity
                   Contractors (ZPIC) to increase monitoring of suppliers’ DTS claims by
                   using measures of questionable billing similar to those in this report.67
                   CMS should develop additional thresholds and new edits for these
                   measures and instruct its contractors to conduct additional review of DTS
                   suppliers that exceed the thresholds. CMS should also consider including
                   these measures of questionable billing in its predictive analytic work.
                   On July 1, 2013, the national mail order (NMO) Competitive Bidding
                   Program for diabetic testing supplies began. CMS believes the NMO
                   Competitive Bidding Program will reduce the number of mail order DTS
                   suppliers. We encourage CMS to closely monitor suppliers that are


                   67
                     ZPICs perform Medicare integrity work for Medicare Parts A and B. This includes
                   conducting audits, interviewing beneficiaries and providers, and initiating administrative
                   sanctions (including suspending payments, determining overpayments, and referring
                   providers for exclusion from Medicare).

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)        23
                   awarded an NMO contract. CMS should also monitor non-NMO suppliers
                   that did not win contracts.
                   Provide more education to suppliers and beneficiaries about
                   appropriate DTS billing practices
                   -    CMS should educate suppliers about appropriate DTS billing
                        practices. CMS should continue to implement supplier training that
                        addresses the unique requirements of billing Medicare for DTS.
                   -    CMS should educate beneficiaries about how to identify potential
                        fraud, waste, or abuse in DTS by more closely examining their
                        benefits statements and/or better understanding Medicare’s payment
                        policies for DTS.
                   Take appropriate action regarding inappropriate Medicare DTS
                   claims and suppliers with questionable DTS billing
                   In a separate memorandum, we will refer to CMS for appropriate action a
                   list of suppliers with the inappropriate-billing characteristics that we
                   identified. We will also forward for further analysis the 4,959 DTS
                   suppliers with questionable billing.




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   24
                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   In its comments on the draft report, CMS partially concurred with two of
                   our four recommendations and concurred with the remaining two
                   recommendations. CMS acknowledged the high billing rate of DTS and
                   described the steps being taken to address it. These include
                   implementation of the NMO Competitive Bidding Program, which will
                   reduce the cost of mail-order diabetes testing supplies by an average of 72
                   percent. Further, the payment amounts for non-mail order diabetes testing
                   supplies were reduced to the NMO Competitive Bidding Program amounts
                   on July 1, 2013. CMS noted that implementing market-based payment
                   amounts will make diabetes testing supplies a less-tempting target for
                   fraudulent suppliers.
                   CMS partially concurred with our first recommendation to enforce
                   existing edits to prevent inappropriate DTS claims. CMS stated that it is
                   already enforcing billing procedures for claims where the beneficiary does
                   not have a diabetes diagnosis. Further, CMS stated that it will implement
                   billing procedures that deny unpaid DME claims that have a service date
                   greater than 2 days before a Part A discharge date or a Part A discharge
                   status that was not to home. CMS should ensure that these edits apply to
                   both inpatient hospital stays and SNF stays.
                   CMS partially concurred with our second recommendation to increase
                   monitoring of DTS suppliers’ Medicare billing. CMS noted that it plans to
                   develop a revised DTS medical review strategy after the NMO
                   Competitive Bidding Program for diabetes test supplies is implemented.
                   While CMS will consider additional automated edits, it cannot commit to
                   implementing edits that require only more medical review, because of
                   resource limitations. CMS also stated that it will closely monitor suppliers
                   in the NMO Competitive Bidding Program and non-mail order DTS
                   suppliers. Additionally, CMS noted that it launched a model in the Fraud
                   Prevention System in January 2013 related to DTS.
                   CMS concurred with our third recommendation that it provide more
                   education to suppliers and beneficiaries about appropriate DTS billing
                   practices. CMS stated that it has provided extensive education on the
                   definition of “mail order” and the requirements for submitting mail order
                   and non-mail order DTS claims. Additionally, CMS noted that it provides
                   educational materials to beneficiaries, including a handbook mailed to
                   beneficiaries annually about DTS coverage, as well as public service
                   announcements and a letter mailed to beneficiaries about the NMO
                   Competitive Bidding Program.


Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   25
                   CMS also concurred with the fourth recommendation that it take
                   appropriate action regarding inappropriate Medicare DTS claims and
                   suppliers with questionable DTS billing. CMS stated that it will forward
                   the list of questionable suppliers to the RACs and DME MACs and will
                   instruct them to consider information in this report when prioritizing their
                   medical review strategies or other interventions.
                   CMS also provided technical comments. In response, we made revisions
                   to the report, where appropriate. For the full text of CMS’s comments, see
                   Appendix D.




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   26
                   APPENDIX A

                   Geographic Areas of Diabetes Test Strips Suppliers With Four or More
                   Measures of Questionable Billing, 2011

                                                                                                               Diabetes Test
                                                                                                                Strips (DTS)
                                                                                                             Suppliers out of
                                                                                                                   Total DTS
                   Geographic Area                                   Medicare-Allowed           Number of
                                                                                                              Suppliers With
                                                                              Amount             Suppliers
                                                                                                               Four or More
                                                                                                                Measures of
                                                                                                               Questionable
                                                                                                                     Billing *
                   Miami–Fort Lauderdale–
                                                                         $15,480,748.14                 2                15%
                   Pompano Beach, FL

                   Atlanta-Sandy Springs-Marietta, GA                     $4,360,452.40                 2                15%

                   Cleveland-Elyria-Mentor, OH                            $1,970,246.89                 1                 8%

                   New York-Northern New Jersey-Long                        $591,296.94                 1                 8%
                   Island, NY-NJ-PA
                   Dayton, OH                                               $195,321.57                 1                 8%

                   Dallas-Fort Worth-Arlington, TX                            $81,481.08                1                 8%

                   El Dorado, AR                                              $63,749.18                1                 8%

                   Indianapolis-Carmel, IN                                    $55,894.71                1                 8%

                   San Antonio-New Braunfels, TX                              $54,596.44                1                 8%

                   Fairmont, WV                                               $43,091.05                1                 8%

                   San Juan-Caguas-Guaynabo, PR                                $2,757.24                1                 8%
                      National                                           $22,899,635.64                13               100%
                   *The percentages do not sum to 100 percent because of rounding.
                   Source: Office of Inspector General analysis of Part B data for DTS, 2012.




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                       27
                   APPENDIX B

                   Geographic Areas of Top 10 Questionable-Billing Diabetes Test Strips
                   Suppliers, 2011

                                                                                                               Questionable
                    Supplier
                                     Geographic Area                                                       Medicare-Allowed
                    Number
                                                                                                                    Amount


                    Supplier 1                         Port St. Lucie-Sebastian-Vero Beach, FL                   $114,748,373



                    Supplier 2                     Miami-Fort Lauderdale-Pompano Beach, FL                        $19,943,999


                    Supplier 3               Nashville-Davidson--Murfreesboro--Columbia, TN                       $17,932,498


                    Supplier 4               Nashville-Davidson--Murfreesboro--Columbia, TN                       $16,330,932


                    Supplier 5                     Miami-Fort Lauderdale-Pompano Beach, FL                        $13,913,613


                    Supplier 6                     Miami-Fort Lauderdale-Pompano Beach, FL                        $11,442,097


                    Supplier 7                     Miami-Fort Lauderdale-Pompano Beach, FL                        $10,688,470


                    Supplier 8                             Tampa-St. Petersburg-Clearwater, FL                    $10,401,737


                    Supplier 9                     New York-Newark-Bridgeport, NY-NJ-CT-PA                         $7,763,993


                    Supplier 10                    Miami-Fort Lauderdale-Pompano Beach, FL                         $6,722,770

                   Source: Office of Inspector General analysis of Part B data for diabetes test strips, 2012.




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                             28
                   APPENDIX C
                   Medicare-Allowed Amounts for and Number of Suppliers With Questionable
                   Billing for Mail Order and Non-Mail Order Diabetes Test Strips1 in
                   Competitive Bidding Areas2 and Non-Competitive Bidding Areas3 in 2010
                   and 2011


                   Table C-1: Medicare-Allowed Amounts for and Number of Suppliers With Questionable Billing
                   for Mail Order DTS in CBAs in 2010 and 2011

                                                                                                                         Change
                   Measure of Questionable Billing                                 2010                      2011     From 2010
                                                                                                                         to 2011
                   Beneficiaries associated with multiple
                   DTS claims submitted by the same
                   supplier during overlapping time periods:

                                    Medicare-allowed amount                   $772,156                     $6,024          -99%
                                          Number of suppliers                         24                        8          -67%
                   Beneficiaries associated with DTS
                   claims at perfectly regular intervals:

                                    Medicare-allowed amount                 $5,130,164                  $1,040,701         -80%
                                          Number of suppliers                       133                        52          -61%
                   Beneficiaries associated with
                   overlapping DTS claims from more than
                   one supplier:

                                    Medicare-allowed amount                 $5,188,186                   $397,390          -92%
                                          Number of suppliers                       108                        73          -32%
                   DTS claims for beneficiaries in excess of
                   utilization guidelines:

                                    Medicare-allowed amount               $22,143,612                   $2,847,988         -87%
                                          Number of suppliers                       178                       113          -37%

                      Total Medicare-allowed amount                       $33,232,992                   $4,291,370         -87%

                      Total number of suppliers                                     303                       194          -36%
                   Source: Office of Inspector General (OIG) analysis of Part B data for DTS, 2012. 

                   1
                     DTS. 

                   2
                     CBAs. 

                   3
                     Non-CBA areas.





Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                           29
                   Table C-2: Medicare-Allowed Amounts for and Number of Suppliers With Questionable Billing
                   for Mail Order DTS in Non-CBA Areas in 2010 and 2011
                                                                                                               Change
                   Measure of Questionable Billing                             2010                2011     From 2010
                                                                                                               to 2011
                   Beneficiaries associated with multiple
                   DTS claims submitted by the same
                   supplier during overlapping time
                   periods:

                                Medicare-allowed amount                   $7,652,322          $5,972,260         -22%
                                      Number of suppliers                        46                  54          17%
                   Beneficiaries associated with DTS
                   claims at perfectly regular intervals:

                                Medicare-allowed amount                  $53,218,904         $58,709,687         10%
                                      Number of suppliers                       319                 352          10%
                   Beneficiaries associated with
                   overlapping DTS claims from more
                   than one supplier:

                                Medicare-allowed amount                  $72,763,498         $98,380,726         35%
                                      Number of suppliers                       164                 185          13%
                   DTS claims for beneficiaries in
                   excess of utilization guidelines:

                                Medicare-allowed amount                 $261,691,402     $219,911,302            -16%
                                      Number of suppliers                       355                 313          -12%

                      Total Medicare-allowed amount                     $395,286,785     $382,894,324             -3%

                      Total number of suppliers                                 660                 697            6%
                   Source: OIG analysis of Part B data for DTS, 2012.




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                 30
                   Table C-3: Medicare-Allowed Amounts for and Number of Suppliers With Questionable Billing
                                                                  68
                   for Non-Mail Order DTS in CBAs in 2010 and 2011
                                                                                                              Change
                   Measure of Questionable Billing                           2010                 2011     From 2010
                                                                                                              to 2011
                   Beneficiaries associated with multiple
                   DTS claims submitted by the same
                   supplier during overlapping time
                   periods:

                                Medicare-allowed amount                  $457,293             $361,111          -21%
                                       Number of suppliers                     86                  113          31%
                   Beneficiaries associated with DTS
                   claims at perfectly regular intervals:

                                Medicare-allowed amount                  $797,742            $1,880,789        136%
                                       Number of suppliers                    123                  145          18%
                   Beneficiaries associated with
                   overlapping DTS claims from more
                   than one supplier:

                                Medicare-allowed amount                  $310,141             $323,994            4%
                                       Number of suppliers                    116                   85          -27%
                   DTS claims for beneficiaries in excess
                   of utilization guidelines:

                                Medicare-allowed amount                 $1,986,617           $4,556,094        129%
                                       Number of suppliers                    260                  273            5%

                      Total Medicare-allowed amount                     $3,550,236           $7,121,368        101%

                      Total number of suppliers                               519                  544            5%
                   Source: OIG analysis of Part B data for DTS, 2012.




                   68
                      As shown in Table C-3, there was a 101 percent increase in the amount Medicare
                   allowed in questionable billing for non-mail order DTS in CBAs between 2010 and 2011.
                   Prior OIG work has determined that this was in part due to suppliers’ improperly billing
                   mail order DTS as non-mail order. OIG, Supplier Billing for Diabetes Test Strips and
                   Inappropriate Supplier Activities in Competitive Bidding Areas (OEI-04-11-00760),
                   November 2012.

Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                31
                   Table C-4: Medicare-Allowed Amounts for and Number of Suppliers With Questionable Billing
                   for Non-Mail Order DTS in Non-CBA Areas in 2010 and 2011
                                                                                                               Change
                   Measure of Questionable Billing                            2010                 2011     From 2010
                                                                                                               to 2011
                   Beneficiaries associated with multiple
                   DTS claims submitted by the same
                   supplier during overlapping time
                   periods:

                              Medicare-allowed amount                    $4,662,777           $4,041,784         -13%
                                      Number of suppliers                      649                  676            4%
                   Beneficiaries associated with DTS
                   claims at perfectly regular intervals:

                              Medicare-allowed amount                    $4,434,763           $5,556,782         25%
                                      Number of suppliers                      682                  711            4%
                   Beneficiaries associated with
                   overlapping DTS claims from more
                   than one supplier:

                              Medicare-allowed amount                    $2,602,851           $3,204,223         23%
                                      Number of suppliers                      389                  422            8%
                   DTS claims for beneficiaries in
                   excess of utilization guidelines:

                              Medicare-allowed amount                   $15,590,781          $14,483,191          -7%
                                      Number of suppliers                     1,269                1,188          -6%

                      Total Medicare-allowed amount                     $27,266,702          $27,243,881           0%

                      Total number of suppliers                               2,708                2,711           0%
                   Source: OIG analysis of Part B data for DTS, 2012.




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)                 32
                    APPENDIX D
                    Ag ency Comments




                                                                                                 Centers tor Medic;ue & Metlb;lld Services
                      DEPARTMENT OF HEALTH & HUMAN SERVICES
                      - --­ -------------­ - ­                            --
                                                                                                 Administratar
                                                                                                 Washi ngton. DC 20201




                   DATE: 	        AP R3 0 ZOll
                   TO : 	         Daniel R. Lev inson
                                  Inspector General

                   FROM: 	        Matilyn \ravenner
                                                       /S/
                                  Acting Administrator

                   SUBJECT : 	 Office oflnspector General (OIG) Draft Report: inappropriate a nd
                               Questionable Medicare Billing for Diabetes Test Srrips (OEI--04-11-00330)


                   Thank you for the opportunity to review and comment on the OIG draft report titled,
                   "Inappropriate and Questionable Medicare Billing for Diabetes Test Strips, (OEI-04-11-00330)."
                   'The Centers for Medicare & Medicaid Services (CMS) appreciates the time and resources OlG
                   has invested to review this issue. OlG's audit focused on Medicare-allowed 2010 and 2011
                   claims lor diabetes test strips (DTS). OIG also examined instances of allowed claims that
                   overlapped with dates for which a patient was in a hospital or skilled nursing facility.

                    The CMS is aware of, and acknowledges, the high Medicare billing rate of DTS and is
                    proactively taking steps to address it. This July, CMS will update its claims processing
                    procedures to ensure that Medicare does not pay for durabl e medical equipment (DME) while a
                    beneficiary is in IUl inpatient hospital. Also in July, CMS will implement the National Mail
                    Order Program under competitive bidding for diabetic supplies. This program will reduce the
                    cost of mail-order diabetic testing supplies by an average of 72 percent. Under the American
                    Taxpayer Relief Act of2012, the fee schedule amounts for retail diabetic testing supplies will be
                    reduced to the National Mail Order Program amounts starting on July 1. Implementing market­
                    based payment amounts will make diabetic testing supplies a less tempting target for fraudulent
                    suppliers.

                    We have reviewed the report and responded to your recommendations below.

                    OIG Recommendation 1

                    l:'.nforcc existing edits to prevent inappropriate DTS claims. CMS should enloree claims­
                    processing edits to prevent inappropriate claims that do not include an appropriate diabetes
                    diagnosis code. Additionally, lhese edits should identify DTS claims that overlap with an
                    inpatient hospital stay or a skilled nursing facility stay and flag them for further review to ensure
                    the overlap is appropriate (i.e., on the day of discharge or during a leave of absence).




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11 · 00330)                                                 33
Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   34
Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   35
Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   36
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Dwayne Grant, Regional
                   Inspector General for Evaluation and Inspections in the Atlanta regional
                   office, and Jaime Durley, Deputy Regional Inspector General.
                   Starr Kidda served as the lead analyst for this study. Other principal
                   Office of Evaluation and Inspections staff from the Atlanta regional office
                   who conducted the study include Rachel Daiber. Central office staff who
                   provided support include Berivan Demir Neubert, Scott Horning,
                   Scott Manley, and Christine Moritz.




Inappropriate and Questionable Medicare Billing for Diabetes Test Strips (OEI-04-11-00330)   37
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
